<html>
<title> - INSPIRING STUDENTS TO FEDERAL SERVICE</title>
<body><pre>[Senate Hearing 112-118]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-118

                 INSPIRING STUDENTS TO FEDERAL SERVICE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
68-011 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
                Nicholas Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Staff Director, Majority
                   Kata C. Sybenga, Counsel Majority
                Rachel Weaver, Staff Director, Minority
               Alan Elias, Legislatve Assistant Minority
                      Aaron H. Woolf, Chief Clerk









                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                         Tuesday, June 21, 2011

Hon. Christine M. Griffin, Deputy Director, U.S. Office of 
  Personnel Management...........................................     3
Michael C. Kane, Chief Human Capital Officer, U.S. Department of 
  Energy.........................................................     5
Carolyn M. Taylor, Chief Human Capital Officer, U.S. Government 
  Accountability Office..........................................     6
Timothy McManus, Vice President for Education and Outreach, 
  Partnership for Public Service.................................    14
Laurel McFarland, Executive Director, National Association of 
  Schools of Public Affairs and Administration...................    16
Anne Mahle, Vice President for Recruitment, Teach for America....    18
Witold Skwierczynski, President, National Council of Social 
  Security Administration Field Operations Locals, American 
  Federation of Government Employees, AFL-CIO....................    20

                     Alphabetical List of Witnesses

Griffin, Hon. Christine M.:
    Testimony....................................................     3
    Prepared statement...........................................    31
Kane, Michael C.:
    Testimony....................................................     5
    Prepared statement...........................................    39
Mahle, Anne:
    Testimony....................................................    18
    Prepared statement...........................................    72
McFarland, Laurel:
    Testimony....................................................    16
    Prepared statement...........................................    67
McManus, Timothy:
    Testimony....................................................    14
    Prepared statement...........................................    55
Skwierczynski, Witold:
    Testimony....................................................    20
    Prepared statement...........................................    79
Taylor, Carolyn M.:
    Testimony....................................................     6
    Prepared statement...........................................    44

                                APPENDIX

Questions and responses submitted for the record from:
    Ms. Griffin..................................................    87
Background.......................................................    90
Statement for the record from Mr. David Ellwood..................    94

 
                 INSPIRING STUDENTS TO FEDERAL SERVICE

                              ----------                              


                         TUESDAY JUNE 21, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The hearing will come to order.
    Aloha and thank you all for being here today as the 
Subcommittee examines how the Federal Government could better 
partner with colleges and universities to prepare and recruit 
students for Federal service. And I would like to recognize 
interns who are attending this hearing and thank you for coming 
to listen in on what we hope you can be a part of in the very, 
very near future. So thank you so much for being here.
    The Federal Government is the largest employer in the 
United States, and Federal service is a noble profession. 
Within the next 5 years, the Federal Government is expected to 
face one of the largest retirement waves in the Nation's 
history, making the development of a new generation of workers 
even more vital.
    In today's economy, many students are graduating only to 
find that they are locked out of a market that is not producing 
enough jobs. At the same time, the Federal Government has jobs 
that are mission critical and difficult to fill. There simply 
are not enough graduates to fill critical jobs in many 
scientific, technical, national security, and medical fields. 
We must develop innovative strategies to bridge this gap. We 
should not look at this solely as a challenge. This creates a 
unique opportunity for universities to place graduates in good 
jobs if we can make students aware the opportunities exist and 
prepare them to fill those jobs.
    We need to continue to build stronger relationships between 
agencies and universities to help foster academic programs that 
prepare students for Federal service, especially for difficult-
to-fill positions. I believe that, working together, we can 
maximize our recruitment efforts to address critical hiring 
needs while also creating direct pipelines for students into 
the agencies.
    As part of this effort, we must continue to work to improve 
the broken Federal hiring process. This Subcommittee has 
focused on reforming the Federal hiring process. Since 2008, we 
have held three hearings on the issue and worked closely with 
the administration on its reform efforts. Additionally, I 
introduced the Federal Hiring Process Improvement Act last 
Congress with Senator Voinovich. I intend to continue that 
effort this year.
    The Administration has been making some good progress, but 
we still hear stories of talented individuals who seek 
employment with the Federal Government, only to grow frustrated 
with the archaic hiring process and find work elsewhere. In the 
past, I believe there has been too much focus on creating 
exceptions to the competitive hiring process for recent 
graduates rather than making sure the competitive process works 
for them.
    I strongly believe the competitive hiring process can serve 
as an effective avenue for bringing recent college graduates 
into the workforce. The competitive hiring process serves as 
our most effective tool to ensure that the Federal workforce is 
composed of the most qualified and able individuals, who are 
appointed only after competing in a fair and open process that 
is free from political interference.
    As the President stressed when he issued his Executive 
Order last December on Recruiting and Hiring Students and 
Recent Graduates, the Federal Government benefits from a 
diverse workforce that includes the enthusiasm and perspectives 
of students and recent graduates. Once we recruit students and 
recent graduates, we must harness their enthusiasm and talents 
through focused training and development.
    One program I am particularly proud of is the Pearl Harbor 
Naval Shipyard apprenticeship program, which attracts thousands 
of applicants for 125 to 150 positions each year. The 
apprentices learn a trade and earn an associate's degree from 
the Honolulu Community College through this 4-year, paid work-
study program.
    I am so glad to have each of our witnesses here today 
representing both the public and private sectors. Each one of 
you brings a different and valuable perspective to this 
discussion. I look forward to hearing from each of you today 
and also continuing to work with you to ensure our next 
generation of Federal workers will be ready to lead.
    I welcome our first panel of witnesses to the Subcommittee: 
Christine Griffin, Deputy Director of the Office of Personnel 
Management (OPM); Michael Kane, Chief Human Capital Officer 
(CHCO) at the Department of Energy (DOE); and Ms. Carolyn 
Taylor, Chief Human Capital Officer at the Government 
Accountability Office (GAO).
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so please raise your right hand. Do you swear 
that the testimony you are about to give before this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Griffin. I do.
    Mr. Kane. I do.
    Ms. Taylor. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made part of the record, and I would like to 
remind you to please limit your oral remarks to 5 minutes.
    Ms. Griffin, will you please proceed with your statement?

STATEMENT OF THE HON. CHRISTINE M. GRIFFIN,\1\ DEPUTY DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Griffin. Thank you, Senator Akaka, and it is great to 
see you back in action and well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Griffin appears in the appendix 
on page 31.
---------------------------------------------------------------------------
    Senator Akaka. Good to be here. Thank you.
    Ms. Griffin. Thank you for the opportunity to testify today 
regarding the Office of Personnel Management's efforts to 
improve the way the Federal Government recruits and hires 
students. We are excited about all of the hiring reform 
measures that we are taking at OPM, both as an employer and as 
the Federal Government's H.R. adviser.
    Hiring reform has several major components, all of which, 
in one way or another, create opportunities to improve Federal 
employment options. Essay-style questions have been eliminated 
from the initial application, and job seekers can apply for a 
Federal job with just a resume and a cover letter. Supervisors 
and managers are more involved in the hiring process, and they 
are held accountable for the quality of their hires and for 
supporting a successful transition of new employees into the 
Federal service. Once we get them, we need to keep them.
    I am pleased to tell you that we recently launched 
USAJOBSRecruit. This is a one-stop recruiting site for Federal 
agencies that providing information, tools, and guidance on 
recruitment as well as provides an opportunity for agencies to 
collaborate with one another through the use of discussion 
forums and blogs.
    Additionally, through USAJOBSRecruit, there is a new tool 
called the School Sorter. This allows agencies to sift through 
applicants by the type of university they attended. The School 
Sorter provides data in educational resources covering a full 
range of postsecondary institutions across the country, 
including over 7,000 colleges and universities. Users can share 
recruiting experiences, and they can search schools based on 
available majors and degrees, much like the ones you discussed, 
that are difficult to find or to fill Federal jobs with. Also, 
we can sort by historical commitment to serving diverse 
populations in promoting Federal service to their students.
    The Student Pathways Programs are another major component 
of hiring reform. It establishes clear paths to Federal 
internships for students from high school through postgraduate 
level and to careers for recent graduates. This program 
requires agencies to invest in meaningful training and career 
development for individuals at the beginning of their Federal 
careers.
    The three programs included in the Pathways framework are: 
An internship program, a Recent Graduates Program, and a 
reinvigorated Presidential Management Fellows (PMF) program. We 
expect to issue proposed regulations for public comment 
sometime later this summer.
    OPM also conducts extensive outreach to students in 
educational institutions with a particular emphasis on 
enhancing diversity within the overall Federal workforce. For 
example, OPM employees go directly to historically black 
colleges and universities and Hispanic colleges and 
universities to conduct training on how to apply for Federal 
internships or jobs. In the last few months, I personally have 
gone to the University of Texas-San Antonio, L.A., and San 
Diego to speak directly with students and university 
representatives to explain the opportunities for Federal 
internships and careers. I will be in Cincinnati next week 
doing exactly the same at the LULAC conference.
    OPM, in collaboration with the Partnership for Public 
Service, helps educate a new generation of leaders about the 
importance and value of public service with the Call to Serve 
Initiative. This initiative reaches more than 700 schools and 
more than 75 Federal agencies, and right now we are planning to 
invite the hundreds and hundreds of Federal interns here in 
D.C. this summer to a briefing at OPM on Student Pathways so 
that when they return to their schools they can begin spreading 
the word. And, actually, a lot of the interns that are here 
today are involved in actually developing that briefing for 
their fellow interns through our government.
    In addition to our efforts to spearhead the Pathways 
Program Framework governmentwide, we are also working to 
enhance our own internal agency programs for student interns 
and Presidential Management Fellows. We have long recognized 
that the PMF program offers an excellent source of talented 
individuals who have already been recruited and vigorously 
assessed by OPM.
    You are a leader in this area, Mr. Chairman, and especially 
in the area of mentoring and supervisory training. We know that 
emphasizing the importance of supervisory training makes it 
clear that supervisory skills are valued in their own right, 
and the opportunity to become a supervisor or a manager is not 
merely a reward for achievements unrelated to one's potential 
as a supervisor. So we recognize the importance of training as 
we published in our regulations for supervisors that every 3 
years they should know about mentoring employees, improving 
employees' performance, conducting performance appraisals, and 
assisting employees in addressing unacceptable performance. We 
know that good mentoring is an integral part of developing and 
retaining a diverse workforce.
    Thank you again. I will be happy to respond to any 
questions you have.
    Senator Akaka. Well, thank you very much for your 
statement, and it is good to hear what you are doing, so thank 
you very much, Ms. Griffin.
    Mr. Kane, please proceed with your statement.

 STATEMENT OF MICHAEL C. KANE,\1\ CHIEF HUMAN CAPITAL OFFICER, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Kane. Mr. Chairman, thank you very much for the 
opportunity to appear before you today. We at the Department 
are particularly proud to be here and discuss our recruitment 
programs and, notably, what we are doing in the area of student 
Ambassadors, which furthers the competitive process and gives 
focus to those individuals of talent who want to pursue Federal 
service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kane appears in the appendix on 
page 39.
---------------------------------------------------------------------------
    In the strategy, we looked at how the Department was 
recruiting. Specifically, we have 15,000 Federal employees. We 
have 18 servicing personnel offices, and they are spread 
throughout both rural and highly metropolitan areas.
    When we looked at those offices, we discovered that they 
had tremendous local outreach. They did a very good job with 
local universities in and around our facilities and our 
laboratories in highly technical hiring environments where 
there were skill sets that we needed. However, just as you 
discussed, bringing the best and the brightest means reaching 
beyond those boundaries. It means broadening the view from just 
a job to a career, to a lifelong commitment.
    So we studied where we were holding job interviews, where 
we were addressing student employment, and we found that 
although we did something on the order of 182 job fairs and 
events throughout the year, they were split: 40 percent of them 
in the West, about 25 to 27 percent in the Midwest, and then 
the remaining 20 on the east coast. And we were drawing what I 
call geographically related recruitment from them. We needed to 
broaden that activity.
    We also needed to address the fact that OPM and the entire 
reform effort connected with USAJOBS gave students a wider 
window. That window opened them up to endless job 
possibilities, but they needed help and assistance to look at 
how those job opportunities translated into their specific 
condition.
    We focused on establishing, back in 2009 and 2010, six 
positions called student Ambassadors. The intent was to put 
these students who had worked for us, who came from diverse 
program backgrounds--they were graduate and undergraduate 
students, engineering students, business students, 
international affairs students--out as our Ambassadors, 
providing peer-to-peer, student-to-student discussion about 
what it was like to work in the Department of Energy, what it 
was like for the Federal Government. So that behind USAJOBS and 
all the ability it gave students to locate jobs, they could 
talk about careers; they could talk about meaning; they could 
talk about the things that are important to the new generation: 
Commitment, the chance to make a difference, lifestyle changes. 
And the students themselves, using USAJOBS and using that 
knowledge, could look beyond just competing for a local job and 
ask where is the career path, how can I navigate that path, if 
I need more information how can I find it.
    So what we had were people who were located on the college 
campuses, working with the professors, and here is the key 
factor to me. Those six people by the end of a 7-month 
rotation, basically the school semester year, had brought about 
contacts with over 71 faculty. Now, those students may graduate 
and move on, but that bridge that they have created to mine the 
talent that is there, to refer it, is continual. It is a 
renewable resource for us. And so we believe the student 
Ambassadors are an excellent way to complement the electronic 
world that we live in. Whether we are tweeting or texting, we 
have the ability for students and faculty to find somebody who 
can tell them what we are really like, who can talk about our 
values, can talk about our training opportunities, can talk 
about the career paths in a language they understand, and they 
can tell us more directly what is working in our recruitment 
and what is not.
    I thank you very much for that opportunity.
    Senator Akaka. Thank you very much, Mr. Kane, for your 
statement. It is good to hear what you are doing in helping 
students become future employees.
    Ms. Taylor, will you please proceed with your statement?

STATEMENT OF CAROLYN M. TAYLOR,\1\ CHIEF HUMAN CAPITAL OFFICER, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Taylor. Thank you. Chairman Akaka, thank you for the 
opportunity to be here today to discuss GAO's campus 
recruitment program. As an organization committed to having a 
high-performing diverse workforce, we place great importance on 
attracting, hiring, training, and retaining employees with the 
skills needed to support GAO's mission to serve Congress and 
the American public. While our future hiring will be shaped by 
the budget environment, over the past 5 years we have hired 
about 300 employees each year, mostly at the entry level, for 
our analyst and analyst-related positions. Also over this time 
period, we have had a very robust student intern program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Taylor appears in the appendix on 
page 44.
---------------------------------------------------------------------------
    Having a strong campus recruitment program has played a key 
role in attracting highly qualified candidates. Today I am 
going to focus my remarks on our campus recruitment program, 
our recent efforts to enhance that program, and other programs 
and policies we have in place to support and help new staff.
    Now, GAO's campus recruitment program began about a decade 
ago. We use senior executives and staff from across the agency 
to develop and maintain relationships with many colleges and 
universities across the country. Our relationship building has 
been primarily based on campus visits to recruit both our 
candidates for entry-level as well as for intern positions.
    In addition to these visits, each year since 2001 we have 
convened an Educators' Advisory Panel. This panel includes 
deans and professors from various colleges and universities. 
Through this panel we have obtained advice and provided 
feedback about ways schools can refine and strengthen their 
curricula to make their graduates more successful at GAO.
    To supplement our campus-related efforts, we outreach to 
various professional organizations and groups and attend their 
conferences and make presentations. We also invite them to come 
to GAO to talk to our staff as well. This approach has been 
really very effective. Our brand recognition has grown 
tremendously, and we get thousands of highly qualified 
candidates for each of our openings.
    However, it is a 10-year-old approach. As part of our 
effort to focus more attention on strategic human capital 
management and to be consistent with our recommendations to 
other agencies, we have taken actions to enhance that approach. 
We established stronger linkages between our recruitment 
efforts and our workers' planning needs, and we set recruitment 
priorities based on data and recent evaluation from our program 
outputs.
    Additionally, given the important role our recruiters are 
playing, we have taken steps to make sure we have a well-
trained and diverse recruitment cadre. Also, we have instituted 
a number of institutional changes and administrative changes to 
make the program more efficient.
    Along with our efforts to recruit and hire high-quality, 
diverse staff, we have other programs in place to support staff 
once they arrive at GAO. This support comes primarily from our 
2-year professional development program. This program helps new 
staff learn about our core values, how we do our work, and the 
standards by which they will be assessed.
    Each new employee is assigned an adviser, and each employee 
participates in many, many hours of training, both classroom 
and on the job. New employees receive formal feedback every 3 
months and formal performance appraisals every 6 months to help 
them develop and improve their skills and competencies.
    In addition to our professional development program, the 
involvement of our senior leaders and other policies have been 
really helpful to help employees adjust to GAO. For example, 
our leaders often participate in the new hire orientation. Our 
agency head, the Comptroller General, meets with our new 
employees. And most of our senior executives take an active 
role in some way or the other in the development opportunities 
that are provided for new staff.
    New employees can participate in our mentoring program, and 
we have policies in place to help foster an inclusive and 
supportive work environment to help all staff balance work and 
life, including flexible schedules and telework.
    We think these practices, policies, and programs have 
contributed to employees' decisions to stay. About 90 percent 
of the employees that we hired in 2008 are still with us today.
    Finally, feedback from our new employees shows really high 
levels of job satisfaction. This positive feedback has 
contributed to GAO being named as the second best place to work 
in the government in 2009 as well as in 2010.
    This concludes my prepared remarks. I will be very glad to 
answer any questions that you may have, Mr. Chairman.
    Senator Akaka. Thank you very much, Ms. Taylor, for your 
testimony here and your statement.
    Ms. Taylor. You are welcome.
    Senator Akaka. Let me ask my first question to Ms. Griffin. 
Many companies that are successful in recruiting top talent 
require senior executives to devote time to recruiting and 
developing the workforce. What steps is OPM taking to engage 
senior leadership and focus their attention on recruiting and 
cultivating top talent?
    Ms. Griffin. Well, some of the initiatives that we have 
taken through the hiring reform agenda are getting managers 
more involved in the whole process, more involved in the 
recruiting, more involved in really the very beginning of the 
decision about what is needed, who is needed, and then getting 
them to take more ownership of the whole hiring process.
    OPM works closely with the Chief Human Capital Officers, 
Council, and I am sure Mr. Kane can attest to the numerous 
discussions that we have about this very issue. And in addition 
to that, one of the things that we are implementing at OPM and 
we hope to share with the rest of the government as we get 
better at doing it ourselves is a mentoring program.
    So there are a number of things that we are doing, but we 
are saying to senior executives and to managers overall, and to 
supervisors, that to get good-quality folks, you need to be 
involved in every aspect of the process.
    Senator Akaka. Well, thank you very much, Ms. Griffin.
    Mr. Kane, understanding which strategies work and which do 
not and adapting accordingly are important parts of a 
successful recruiting program. To do this well, you must 
collect the right data and have metrics in place.
    How are you evaluating and adapting your hiring strategies?
    Mr. Kane. Mr. Chairman, we are looking at an number of 
factors. We look at the number of recruits that we have from 
certain universities in certain areas. We look at how many 
outreach activities occur by using tools like USAJOBS, for 
example, to hire, we are looking at the number of applicants 
that come through to us, identifying that they have an interest 
in employment, whether they file an application or not. We do 
that through a series of centralized tools. We do that so that 
we can track where the interest comes from and then localize 
our efforts at those schools.
    I talked a little bit about the Ambassadors program. That 
is one of the things they do. If you look at the number of 
events they get involved in, it is tremendous. So they might 
result in 80,000 hits in terms of applications, requests for 
information, printed or otherwise, or just online conversations 
about employment. Now, that is a tremendous amount of 
information.
    What we need to know more specifically is: Are they finding 
the right jobs? Are they getting to our executives to talk 
about what those jobs really are? Are they able to understand 
where our jobs and careers might result in lifestyle behaviors 
or changes that they want to have? Do they want to go on to 
graduate school? Do they want to go on to a Ph.D.? Do they like 
living in the desert? Are they thinking about a family and 
looking at a career path that will keep them in one place for a 
long period? Or are they looking to be involved in 
international work and want to travel overseas?
    So we use USAJOBS and we use our Jobs One portal, 
particularly that automated information, to allow us to focus 
in on how well we are recruiting. Then we use the Ambassadors 
to focus in on how are we connecting.
    Senator Akaka. Thank you very much, Mr. Kane.
    Ms. Christine Griffin, OPM has led extensive workforce 
planning to address the governmentwide shortage of 
veterinarians after this Subcommittee held a hearing on that 
issue. There are also shortages of qualified professionals in 
other areas, including many scientific, technical, and medical 
fields. Colleges would be eager to place their graduates in 
many of these positions, but they may need better information 
about what training is needed and how their students can get 
hired.
    My question is: How can the Federal Government better work 
with schools to build pipelines into these difficult-to-fill, 
critical positions?
    Ms. Griffin. There is no doubt that we need to do a better 
job of actually working with not only our folks at OPM that go 
out and do the recruiting, but also with the other agencies and 
helping them develop any of the skills and tools they need to 
have access to the right colleges and universities as well as 
access to the folks that they can work with to educate the 
students about the opportunities that exist in the government, 
and at what agencies in particular.
    We know that our refresh of the USAJOBS is a way of helping 
them do that, and the tool that I talked about, the 
USAJOBSRecruit, is a very recent tool--I think we only 
implemented it about a month ago--that will allow agencies to 
find schools specifically with the students that are getting 
the skills that they need in their agencies, and then they can 
go directly to those schools. They can develop relationships 
with the folks at those schools.
    So we are using technology and developing better ways of 
using technology to help the agencies actually recruit the 
folks that they need.
    In addition to that, there are other mechanisms by which we 
can help them do that, and agencies from time to time do come 
and ask us to help them develop particular registers and things 
like that of types of occupations that will help them hire 
people more expediently into the workforce.
    Senator Akaka. Thank you.
    Ms. Taylor, your statement notes that GAO provides feedback 
to schools on how they can refine and strengthen their 
curricula to make their graduates more successful. I would like 
to hear your thoughts on what more the Federal Government could 
do to provide schools guidance on the skills the Federal 
Government needs and how schools can prepare their students to 
be successful Federal job candidates?
    Ms. Taylor. I would say first that we have been working 
with our universities since 2001, a lot of the deans and 
professors, and we have pretty much tailored our feedback to 
them to fit the job areas and the competencies that we need, 
and so our feedback to them has been more directed in that 
regard.
    And if I were to give some guidance or suggestions to some 
of the other agencies, I think we have to start with each 
agency's specific mission and focus and have them look for 
those organizations and schools that help them meet their needs 
and focus specifically on their agencies' key competencies. So 
it has to sort of be tailored to the individual agency.
    Senator Akaka. Thank you.
    Ms. Griffin, historically, the competitive hiring process 
was the main route into Federal service. However, in recent 
years the Federal Career Intern Program grew so dramatically 
that most entry-level hires were made through that program. I 
repeatedly raised concerns that using the intern program as the 
general hiring authority undermined veterans' preference and 
merit principles. I want to thank the Administration for 
phasing that program out.
    How will you make sure that the new Student Pathways 
Programs do not again become a substitute for the competitive 
hiring process?
    Ms. Griffin. One of the ways we can do that, Senator, is 
actually by providing more oversight of that program. It is 
something that we have discussed with all of the Chief Human 
Capital Officers. It is something that we have discussed with 
the Office of Management and Budget (OMB) as well, and we will 
be seeking to have progress reviews and updates on how the 
program is going on a continuous basis so that we never find 
ourselves in that situation again.
    Senator Akaka. Well, Ms. Griffin, President Obama issued 
the Student Pathways Executive Order last December, but OPM has 
yet to release draft regulations to establish the new Pathways 
Programs. What is the cause of the delay? And when do you 
expect the draft regulations to be released?
    Ms. Griffin. Well, I am happy to report that they are 
complete. They are going out for agency comment. They will be 
available for public comment later this summer, so they are 
actually finished to the point where they are releasable to get 
comment, and we are in that process right now.
    Senator Akaka. Well, that is timely, and it will certainly 
help our cause here.
    Mr. Kane, what are your thoughts on the Student Pathways 
Executive Order? And how will these new programs impact your 
agency's student recruitment strategies?
    Mr. Kane. Pathways is certainly a critical piece of our 
recruitment programs. It has been in the past. What you look at 
with the Department of Energy is the fact that we do have a 
large number of highly specialized skills sets---nuclear 
engineering, environmental engineering, power transmission--and 
one of the things that the Pathways Program and others like it 
does is give us the ability to start working with students 
early on and to encourage those students to use internships, 
use viable, competitive methods coming straight out of school.
    We also look at the Pathways Program as an opportunity for 
us to diversify our recruitment efforts. I talked a little bit 
about the things that we have been doing to try to broaden the 
recruitment so that we get what I call geographic harmony, 
where we do not hire from all one local area.
    Pathways does that because it brings a whole large set of 
students into play. It provides an opportunity that other 
competitive means do not. That is not to say that we do not do 
a lot of competitive hiring. We do, from straight up, very 
specialized jobs. What we really want to do is get young 
individuals in and help them grow in their career path, bring 
them out in undergraduate school, bring them in and encourage 
them to go back to school, and change the direction of where 
they are going. They might come out a nuclear engineer, but 
then they need to understand something about managing budgets 
and costs if they are going to work for the government. So they 
go back and get an MBA.
    Pathways and programs like that provide that orientation. 
They provide that focus. So they are extremely valuable to us. 
They are much needed.
    Senator Akaka. Well, thank you very much for that. I have 
complimented and praised our military because, as they rise in 
rank, people do not realize how much training and education 
they go through so that they can deal with their troops and 
whatever mission they will be facing, which changes. And so 
they have constant education so that they are very, very well 
educated, and so in a sense we need that in the other 
departments as well.
    Mr. Kane. And we need to provide that continuity so that 
those uniformed service members coming out who want to continue 
to serve their country can take that highly specialized 
training that they have, marry that with academic credentials, 
and continue to evolve. Pathways is one way to do that.
    Senator Akaka. Mr. Kane, some students considering Federal 
jobs are deterred by the complicated Federal hiring process. We 
have been working on that, all of us. OPM has made progress on 
reforming the hiring process, and as Ms. Griffin testified, OPM 
is also working to provide students with information to help 
them through this process.
    How do you make sure your recruiters on campus have the 
training and ability they need not only to recruit students but 
also to help them navigate the Federal hiring process?
    Mr. Kane. We actually train them on how the process works, 
what the good points and the bad points of an automated filing 
process are, how to go through looking at a job and aiding a 
student in deciphering that job, read what is there.
    One thing that I think is very important to do with 
students in particular is to help them understand where they 
are in the process and what they are looking for. I talked 
about the student Ambassadors. That is a critical link for us 
in doing that because they have actually worked, they have 
spent a summer or longer working inside our buildings, inside 
our plants. They know the difference. They can tell somebody if 
you are looking to do hands-on work, you do not want to go to 
Washington. Washington worries about management and budgets and 
vision and direction. If you want to do hands-on engineering, 
you want to be in Los Alamos, in New Mexico. That is one 
example of what they can do. They can focus in on where the 
work is and help the students translate where the best 
opportunity for them at that point is.
    So I think that is invaluable. We cannot use all the tools 
as just a way of getting people in. We have to keep the human 
touch there. We have to have that quality touch. It is old-
fashioned HR. I am going to talk to you. I am going to sell you 
on my job and why this is important.
    Senator Akaka. Thank you.
    Ms. Taylor, I know that you have stressed the importance of 
keeping strong relationships with universities, but in this 
current budgetary climate, many agencies are not hiring. How is 
GAO engaged with universities to continue to strengthen 
relationships on campus in this current climate? And do you 
think these efforts have been successful?
    Ms. Taylor. We are revising our campus recruitment 
approach. We are not going to visit as many campuses as we have 
in the past. It is just financially not efficient for us to do 
that. We are going to maintain our relationships through a 
variety of ways. We have lots of information that we share, 
that we can give them. We have our senior executives we call 
our campus executives, and each campus executive has probably 
one or two colleges that they stay in contact with, with that 
personal touch, as Mr. Kane mentioned. They will call and 
periodically talk about what is happening in GAO and talk about 
our announcements. We will invite some of the students and the 
colleges to come to GAO, particularly those who are coming to 
Washington. Many of them have a Washington semester or a 
Washington visit. We will invite them to visit there.
    But we have readjusted our focus. We have what we call sort 
of a three-pronged approach. We are going to continue to visit 
a few schools. For most of our schools, we are going to have 
what we call a hybrid approach--some visits but more virtual 
information sharing--and then many others where we are just 
sharing information electronically.
    Senator Akaka. Well, here is my final question, and this is 
for the panel. For internship programs to succeed, they must 
not only meet agency needs, but also provide career development 
and training for participants that prepare them for a career in 
Federal service.
    How do you make sure your internship programs provide 
students the opportunities they need to identify and prepare 
for careers at your agency or other Federal agencies? Ms. 
Griffin.
    Ms. Griffin. Well, one of the things that is actually 
discussed within the confines of the Pathways Program is that 
we as a government have to do a much better job of actually 
developing programs for students when they come in, everything 
from having an active program that teaches them about the 
opportunities within the Federal Government, within your agency 
in particular, making sure that they are exposed to all aspects 
of what a government job entails and what a career in the 
Federal Government can entail. And that could be everything 
from having, a speaker series where different people in 
different parts of the agencies actually talk to them and 
explain what their career path has been like and what led them 
to where they are, to very good advice from our own folks at 
OPM about how to develop a good resume, how to really apply for 
Federal jobs, how to navigate all the different systems that 
are involved.
    I know that we are very active in not only doing that, but 
helping other agencies, reaching out to other agencies and 
helping them develop those same types of programs.
    Senator Akaka. Mr. Kane.
    Mr. Kane. I could follow on with almost exactly what 
Christine had to say, but there is one other key piece that we 
as leaders have to do. We have to protect that budget authority 
and make sure it stays stable. So to provide those speaker 
series, to enter into rotational assignments, it involves 
temporary duty assignment and travel for these students and for 
new employees, for putting them on work teams where they are 
coached and where they get mentoring, technical or otherwise, 
the formal course work that we require them to do.
    They have to know that when they develop those plans with 
their supervisors, two things are going to happen:
    First, that plan is going to be respected; it is going to 
be honored. And when they leave and come back, they are going 
to fit back into their job, and they are going to have work to 
do, not the fear that if I am gone, something is going to get 
moved to somebody else. That is the first piece.
    The second piece, they can look at that agency budget and 
know that funding is being protected so that they are assured 
that the resources are there for that commitment we have made 
to them.
    Senator Akaka. Ms. Taylor.
    Ms. Taylor. For the most part, our internship program has 
been a summer program, so we have candidates in GAO for, 3 or 4 
months in the summer. We treat them like full members of the 
GAO team. We bring them in. We assign them a buddy, sort of a 
semi-mentor--but it is usually a young person as well--to help 
them understand GAO right from the beginning.
    We have a few days of training that we ask them to 
participate in, and we incorporate them, again, as a full 
member of the team. We have set up various activities 
throughout the summer, a speaker series as well. We invite them 
to many of the engagement meetings. We bring them to the Hill 
for opportunities to understand that part of our work as well.
    The performance management piece is important, too, so we 
start with, clear expectations and we give them feedback. And 
at the end of their session, we give them an appraisal and let 
them know what we thought about their performance.
    Most of our interns at the end of the summer are given an 
opportunity to return. Many--about 70 percent--are given offers 
later on, assuming we have the budget authority and the staff 
year. But we have been refining our internship program for a 
while, and it has been really, really an excellent program for 
us. We value those students quite a lot.
    Senator Akaka. Well, I thank you very much for your 
valuable testimony this afternoon. As I mentioned, our Nation 
for the first time in history is facing a large retirement wave 
that is coming, and you have reported some of your activities 
in trying to deal with this wave. And just like the way they 
surf in Hawaii, we want to take advantage and even use it 
wisely as an opportunity to get a good ride. [Laughter.]
    So let us look forward to that and continue to try to look 
for the best ways of not only recruiting but maintaining and 
sustaining and keeping well-qualified, well-educated employees 
for our Federal Government. It is in our hands.
    Thank you for being together, and we will work hard to 
bring that about. Thank you very much.
    I would now ask our second panel of witnesses to please 
come forward. On our second panel this afternoon, we have Mr. 
Tim McManus, Vice President for Education and Outreach at the 
Partnership for Public Service.
    We have Ms. Laurel McFarland, Executive Director of the 
National Association of Schools of Public Affairs and 
Administration; Ms. Anne Mahle, Vice President for Recruitment 
at Teach for America (TFA); and Mr. Witold Skwierczynski.
    Mr. Skwierczynski. Good. W is like V, CZ is like CH. 
Skwierczynski. You did good, though.
    Senator Akaka. He is the President of the National Council 
of Social Security Administration Field Operations Locals at 
the American Federation of Government Employees.
    Welcome to all of you, and it is the custom of this 
Subcommittee to swear in all witnesses, and I would like to ask 
all of you to please stand and raise your right hand. Do you 
solemnly swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. McManus. I do.
    Ms. McFarland. I do.
    Ms. Mahle. I do.
    Mr. Skwierczynski. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Let me also remind all of you that although your written 
statement will be included in the record, your oral statement 
is limited to 5 minutes. Your full written statements will be 
included.
    Mr. McManus, will you please proceed with your statement?

 STATEMENT OF TIMOTHY MCMANUS,\1\ VICE PRESIDENT FOR EDUCATION 
          AND OUTREACH, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. McManus. Thank you, Mr. Chairman. As Vice President for 
Education and Outreach at the Partnership for Public Service, I 
lead the Partnership's efforts to inspire top talent, including 
the Call to Serve Initiative--which you heard Christine Griffin 
talk briefly about--a joint initiative between the Partnership 
and the Office of Personnel Management. That initiative is now 
a vibrant network of more than 750 colleges and universities 
across the country and is the only group of colleges and 
universities dedicated specifically and exclusively to 
promoting Federal opportunities to students.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McManus appears in the appendix 
on page 55.
---------------------------------------------------------------------------
    This is a critical time for this hearing. The challenge of 
inspiring students, particularly those in mission-critical 
fields, is greater than ever before. As we reported in our 
Where the Jobs Are report, there is a tremendous need for 
mission-critical talent across government, many of which are 
also the same hard-to-fill occupations in the private sector.
    Budget constraints are also requiring us to look at new 
cost-effective ways to effectively bring colleges and 
universities and Federal agencies together to recruit top 
talent. Finally, with antigovernment sentiment and Fed bashing 
on the rise, we believe that the Federal Government may lose 
its competitive edge that it has worked so hard to gain over 
the last several years.
    I want to commend the Administration and the Office of 
Personnel Management for its attention to hiring reform and to 
creating new pathways for student employment, particularly 
through the Presidential Memo on Improving the Federal 
Recruitment and Hiring Process and the Executive Order on 
Recruiting and Hiring Students and Recent Graduates. I also 
want to applaud the Subcommittee for its attention to these 
important issues.
    The bottom line, however, is that the only way we are going 
to see change happen is if agency leadership makes recruiting 
and hiring a priority. This Subcommittee should do whatever it 
can to ensure that leaders pay attention to these issues and 
hold them accountable for improvement.
    One way to do this would be to require that talent 
recruitment and management be incorporated into performance 
reviews for all career and non-career Senior Executive Service 
(SES). In addition, OPM now requires that agencies collect data 
on three specific measures related to hiring effectiveness: 
Time to hire, manager satisfaction with the quality of 
applicants, and applicant satisfaction with the process.
    Congress in its oversight function needs to hold agency 
leadership accountable for these measures and broader talent 
issues at every turn.
    We also know this Subcommittee is interested in ways that 
agencies can work better with universities to build critical 
pipelines of talent. I would like to share five recommendations 
based largely on our experience with the Call to Serve 
initiative.
    First, agencies may be limited in their ability to hire at 
the moment, but should continue to have an on-campus presence 
even if they are not actively filling jobs. If not, they risk 
losing all the hard work and the relationships they have built 
up over the years.
    Second, the Partnership's research has shown that peers are 
an important source of career advice and inspiration. We agree 
with Mr. Kane that agencies should follow the lead of the 
Department of Energy and the Department of Housing and Urban 
Development (HUD) and take advantage of peer recruiting 
opportunities by establishing their own student ambassador 
programs, as the Partnership has advocated for in the past.
    Third, agencies and universities should take full advantage 
of the Intergovernmental Personnel Act, which provides for 
temporary exchanges between the Federal Government and colleges 
and universities, thereby more closely linking faculty and 
Federal agencies.
    Fourth, scholarship and loan repayment programs should 
target individuals pursuing mission-critical fields in the 
Federal Government. Congress, in particular, should review 
current Federal scholarship and fellowship programs to better 
understand how the resources are being used, to consolidate 
duplicative programs and infrastructure, and to ensure that 
money is being used to strategically recruit critical talent to 
the Federal Government.
    Last, agencies should see internship programs as a way to 
build long-term pipelines for entry-level talent. Internships 
are a vital component of the new Pathways Program, but Congress 
should also require that agencies collect metrics on the 
quality of the intern experiences through exit surveys. In 
addition, recognizing that there is no better way to assess 
candidates than direct, on-the-job observation, Congress should 
promote the notion of internships serving as a competitive 
examination for future Federal employment.
    The Partnership looks forward to continuing to work with 
you, the Subcommittee, your staff, agencies, and OPM on these 
issues. Again, Mr. Chairman, thank you for your time and your 
attention, I am happy to answer any questions.
    Senator Akaka. Thank you very much, Mr. McManus, for your 
statement.
    Ms. McFarland, will you please proceed with your statement?

STATEMENT OF LAUREL MCFARLAND,\1\ EXECUTIVE DIRECTOR, NATIONAL 
  ASSOCIATION OF SCHOOLS OF PUBLIC AFFAIRS AND ADMINISTRATION

    Ms. McFarland. Thank you. I serve as the Executive Director 
of the National Association of Schools of Public Affairs and 
Administration (NASPAA), an organization of 275 graduate 
schools across the country, including the University of Hawaii, 
which have been committed to inspiring students to Federal 
service for more than four decades.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McFarland appears in the appendix 
on page 67.
---------------------------------------------------------------------------
    Our member schools annually confer over 10,000 Master of 
Public Administration (MPA), Master of Public Policy (MPP), and 
related degrees, and NASPAA is the accreditor of graduate 
programs in these fields.
    More than 30 years ago, NASPAA helped OPM and the Federal 
agencies create the Presidential Management Fellowship program 
to attract the very best from our Nation's graduate schools. 
Unfortunately, while ``excepted'' hiring programs such as the 
PMF have been effective in attracting capable grad students to 
Federal service, there is overwhelming evidence in recent years 
that the existing competitive hiring system simply does not 
work for graduate students. Our data show that graduate 
students applying for Federal positions often have advanced 
training and cutting-edge skills, but little full-time work 
experience, especially in Federal employment. Applicants with 
this combination rarely get selected through USAJOBS.
    Fortunately, the President and OPM have recognized this 
problem and addressed it directly in the Pathways Executive 
Order signed in December. NASPAA applauds the President's and 
OPM's vision and courage. Now we need to make the Executive 
Order stick. This is a watershed moment for the Federal 
workforce. We can implement a half-hearted, skeletal set of 
Pathways Programs, or we can make this a serious downpayment on 
high-performance government. And we know that hiring graduate 
students with the critical skills can do that. If we fail to do 
this, we put the entire future capability of the government at 
risk.
    Students are vital in critical, hard-to-hire areas, and 
they represent the future leadership and management of the 
civil service. Moreover, our graduates have been trained to 
address public policy problems that are growing more complex, 
wicked, and global by the day.
    So how do we convince these graduate students we need so 
much to consider Federal service? I have three recommendations, 
and Congress can play a critical role in each.
    First, the Pathways Programs need to work for students by 
ensuring student pathways to Federal employment are clearly 
marked, coherent, and lead to further opportunities for careers 
in Federal service. Congress needs to insist on a few key 
elements in the Pathway Programs so that they contribute to 
high performance hiring and a coherent system for efficiently 
and accurately matching talent to need. Congress should use its 
oversight to ensure that OPM and Federal agencies collect and 
publish data about how we are doing in recruiting, selecting, 
matching, employing, developing, and retaining recent graduates 
in Federal positions.
    Second, pay special attention to the Presidential 
Management Fellows program. It is both strategically and 
symbolically important in attracting some of the very best 
people to careers in the Federal Government. The PMF selection 
process has been famous for being rigorous, competitive, and 
daunting, which we at NASPAA think is a good thing. We should 
be unapologetic and proud that the purpose of the PMF is to 
identify and develop future leaders and senior managers of the 
Federal workforce. As such, the PMF should select, match, and 
convert fellows based on the Executive Core Qualifications 
(ECQs) developed for the Senior Executive Service.
    Congress should ask for data on key performance measures of 
the program: Were the screening and selection mechanisms truly 
effective in identifying the most talented applicants? Were 
offers made in a timely fashion? Were the PMF positions posted 
by agencies consistent with the mission of the program? What 
percentage of finalists was successfully matched to posted PMF 
positions? And what happened to those finalists who did not 
match?
    Third, and finally, we also need a strong partnership 
between Federal agencies and universities to give life to the 
Executive Order's new Recent Graduates Program. If we want this 
effort to be successful in drawing in graduates with the skills 
we need, it must serve both agencies and students. Congress 
should look for results that agencies have worked with 
education and professional associations to create Recent Grad 
Programs in critical functional areas, like budgeting and 
financial management, public procurement and acquisition, IT, 
human resource management.
    Ultimately, the challenge here is not just the narrow task 
of hiring students and recent graduates. Federal hiring reform 
is about nothing less than ensuring the efficiency and 
effectiveness of the Federal Government in the years ahead and 
our ability to tackle the complicated public problems and 
fiscal pressures we will face.
    Today's students, especially the most talented, can and 
will make a critical contribution to tomorrow's Federal 
Government and our Nation. Thank you.
    Senator Akaka. Thank you very much for your statement, Ms. 
McFarland.
    Ms. Mahle, will you please proceed with your statement?

  STATEMENT OF ANNE MAHLE,\1\ VICE PRESIDENT FOR RECRUITMENT, 
                       TEACH FOR AMERICA

    Ms. Mahle. Thank you, Senator Akaka. I am one of the vice 
presidents of recruitment at Teach for America, and I want to 
thank you for this opportunity to provide our testimony and 
hopefully provide some insight into how we have been successful 
to date.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mahle appears in the appendix on 
page 72.
---------------------------------------------------------------------------
    We are honored to help our congressional leadership think 
through the important question of how we will meet the growing 
need of individuals to serve in these mission-critical 
positions within our Federal agencies.
    Teach for America is the national corps of outstanding 
recent college graduates and professionals of all academic 
majors and career interests who commit 2 years to teach in 
urban and rural public schools and become leaders in the effort 
to expand educational opportunity for all children. Our mission 
is to build the movement that will eliminate educational 
inequity by enlisting our Nation's most promising leaders, both 
in college, graduate school, and professional sectors, to teach 
for 2 years in the short run and in the long term become 
lifelong leaders from all sectors who will work to eliminate 
the barriers that students, families, and communities face to 
achieving educational equity.
    Each year we seek to grow in both scale and diversity and 
to engage more leaders from across the spectrum in our work. 
Over the last 21 years, and in particular in the last 5 years, 
we have learned a number of lessons that we are eager to share.
    We are often asked what lies at the root of our success. I 
think that the answer is pretty simple. It is the hard, 
purposeful work of our on-the-ground recruitment team. In our 
last recruitment season, in individual and group meetings, they 
met with over 32,000 college seniors, graduates, and 
professionals, many of whom had never considered teaching in 
urban and rural public schools in low-income communities. And 
it is also the tight management that we exert around our 
recruitment campaigns. At the end of the day, it is not 
particularly fancy or flashy, but it makes a difference. The 
members of our on-the-ground recruitment team believe deeply in 
our mission and, more importantly, in the potential of the 
students and the families in the communities that we serve. 
This belief drives them, it inspires them in their work, and it 
is through their relentless efforts that we are able to engage 
more and more leaders in our efforts.
    But beyond hard work and a passion for our movement, there 
are some relevant lessons that we have learned.
    First, students and professionals want to serve. As they 
seek out their professional paths, they are looking for 
opportunities to positively impact their community and their 
country. But they do not want to serve simply for the sake of 
service. They want to know that they are making a real, on-the-
ground impact. Students today are savvy consumers who are 
looking for the most effective and direct ways to make that 
impact. It is critical, therefore, that students are presented 
with a compelling value proposition for public service. They 
need to understand what problem they are trying to solve, that 
the problem itself is solvable, how they can personally play a 
role in solving it, and then, finally, they need to believe 
that they are entering a program or a system that will embrace 
their talent, challenge and nurture them in their development, 
and help them engage deeply and meaningfully with the world 
around them.
    Second, high-performing, diverse talent will drive impact. 
Teach for America's selectivity and diversity are central to 
our success. Our selectivity is critical because the success of 
our program relies on the effectiveness of our teachers in the 
classroom and in their leadership throughout their 2-year 
commitment and after the corps experience.
    Diversity is central to our success because we believe that 
maximizing the diversity of our organization will allow us to 
benefit from the talent and energy of all those who contribute 
to this effort. And at the same time that we value each 
individual who commits to our cause, we do place a particular 
focus on fostering the leadership of individuals who share the 
racial and/or socioeconomic backgrounds of the students 
underserved by public schools. In terms of race, we place a 
focus on pursuing the overrepresentation of African American 
and Latino individuals, given that more than 90 percent of the 
students we reach are black or Latino. At the same time, we 
also seek to recruit American Indian, Native Hawaiian, and 
Asian-American corps members given that we reach many students 
of these backgrounds in certain Teach For America regions. I am 
pleased to announce that in our 2011 corps, 35 percent of them 
self-identify as people of color.
    With respect to American Indian and Native Hawaiian 
recruitment, we recognize the historical legacy of inequity and 
marginalization. For example, only 49 percent of native 
children graduate from high school and only 11 percent go on to 
earn a college degree, as compared to the national average of 
86 percent and 29 percent. In response to this reality, Teach 
for America has launched the Native Achievement Initiative, a 
major component of which is increasing the number of Native 
American, Native Hawaiian, and Alaska Natives in our teaching 
corps.
    Finally--oh, I am sorry. I am out of time.
    Senator Akaka. That is all right. Will you complete your 
statement?
    Ms. Mahle. OK. Finally, we also think--and many of your 
previous witnesses spoke to this--that tactical support is 
incredibly important. Over the last 5 years we have instituted 
multiple application deadlines, which allows our applicants to 
complete the process within approximately 10 weeks. For 
example, we let people know within a week of the application 
deadline whether or not they have made it to the next step of 
the process. We instituted five application deadlines to better 
accommodate applicant preferences. And we think that multiple 
deadlines move people through the process quickly so that they 
can make the right decisions about their careers.
    And, finally, we only ask for that data which we know is 
helpful in our process. We have eliminated essays when the data 
shows that it did not give us additional information, and we 
are constantly re-evaluating our processes based on the 
feedback of our candidates.
    Through dedication, passion, and the relentless pursuit of 
results, we have significantly improved the size, diversity, 
and quality of our teaching corps. Yet hard work and innovative 
strategies do not account for all of our results. A key element 
of our recruitment is the value we place on teaching, leading, 
and the power of transformational change in our communities. 
Our applicants and corps members are drawn not only to the 
challenges and opportunities of impacting the lives of 
children, but the honor and prestige they associate with their 
work. Much like the military, joining Teach for America is a 
means of joining a mission that is greater than the sum of its 
parts.
    Thank you, and I look forward to your questions.
    Senator Akaka. Thank you very much, Ms. Mahle.
    Mr. Skwierczynski, please proceed with your statement.

   STATEMENT OF WITOLD SKWIERCZYNSKI,\1\ PRESIDENT, NATIONAL 
  COUNCIL OF SOCIAL SECURITY ADMINISTRATION FIELD OPERATIONS 
      LOCALS, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Skwierczynski. Mr. Chairman, on behalf of the 625,000 
Federal employees that American Federation of Government 
Employees (AFGE) represents in 65 agencies throughout the 
Nation, thank you for the opportunity to testify today on the 
subject of inspiring students to Federal service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skwierczynski appears in the 
appendix on page 79.
---------------------------------------------------------------------------
    Hiring the next generation of Federal employees is a 
serious undertaking. Those charged with the task have a legal 
and social responsibility to conduct Federal hiring in a most 
open, fair, and competitive way possible. Working for a Federal 
agency is not the same as working for a private firm, and it 
takes time to make sure an applicant meets the standards our 
society expects the Federal Government to uphold.
    AFGE applauds President Obama's Executive Order which 
repealed the Federal Career Intern Program, a discredited 
hiring system that made a mockery of the Merit System and its 
promise of open competition for Federal jobs, as well as 
veterans' preference.
    In addition, the Executive Order created the Pathways 
Program to recruit, train, and retain well-qualified 
candidates. Because the OPM regulations are still in 
development, it is too early to tell whether they will avoid 
the pitfalls that plagued the Federal Career Intern Program 
(FCIP).
    We continue to urge OPM to ensure that the programs use 
merit-based procedures for recruitment, provide for equal 
employment opportunity, apply veterans' preference, and comply 
with all applicable laws.
    As an employee and a union representative in the Social 
Security Administration, I know well some of the pitfalls of 
the non-merit-based FCIP. In the last 7 years, at Social 
Security Administration (SSA) virtually all hiring was under 
FCIP. FCIP was characterized by the use of nepotism and 
cronyism in hiring, the failure to hire based on veterans' 
preference, and establishing an unnecessary 2-year probationary 
periods where the law provides for only one.
    The union surveyed SSA employees about their attitudes 
about the SSA hiring practices. Forty-six percent of 
respondents were aware of favoritism--favoritism being defined 
as the hiring of a friend or acquaintance or relative of a 
selecting official or other management official. Fifty-five 
percent of respondents indicated that FCIP was used to advance 
younger workers instead of more experienced and qualified 
employees. Sixty-two percent stated that FCIP was used to limit 
competition, and 61 percent of survey respondents stated that 
FCIP was used to avoid the merit promotion process.
    The union obtained data from the agency regarding veterans' 
preference use in hiring. For example, in Fiscal Year 2008, 
only 4.6 percent of FCIPs were veterans; whereas, competitive 
hires that were hired that year, 17.4 percent were veterans.
    When we published a newsletter for our SSA workers 
regarding some examples in the State of Wisconsin and 
Washington about hiring of relatives of managers, we received 
scores of reports from employees around the country regarding 
similar practices in their offices. Any new recruitment system 
and hiring system must have mechanisms in place to prevent such 
abusive hiring practices. Managers have shown that giving them 
carte blanche hiring authority leads to abusive practices.
    Ms. Griffin indicated in response to your question that OPM 
oversight will cure the problems. We think that is not enough. 
Besides oversight, you need competitive practices and not open-
ended hiring authority for Federal managers.
    OPM Director John Berry has noted several times the desire 
of the Obama Administration to make government service cool 
again. We strongly agree that it is important to support in 
concrete ways our Nation's public servants and to educate the 
public about the value of service to America. If we do this, it 
will be certainly easier to attract the best and brightest to 
Federal service.
    However, new hires need decent pay and benefits packages to 
make Federal employment attractive. Unfortunately, the current 
political climate for all public employees, including Federal 
employees, is harsh. Efforts underway throughout the country 
would eliminate pensions, severely curtail health insurance 
benefits, cut or freeze pay levels, contract out government 
work, and eliminate longstanding collective bargaining rights. 
In particular for Federal employees, the 2-year pay freeze is 
effective this year and next, but there are others in Congress 
who are advocating 5-year pay freezes, including freezing all 
performance based step increases and bonuses.
    The Simpson-Bowles deficit reduction plan, which would 
provide to turn Federal Employees Health Benefits (FEHB) into a 
voucher system, would almost double health insurance costs for 
Federal employees by the year 2030. In addition, it would 
severely reduce health insurance premiums for Federal retirees. 
The FEHB system can--there are overhead costs and prescription 
drug rebate costs that can be built into the system which would 
prevent shifting costs to employees and retirees and saving 
money of Federal Government costs.
    The retiree situation that is being discussed on the Hill 
and before the Vice President, the proposals out there would 
provide for almost a 7-percent increase for Federal Employees 
Retirement System (FERS) employees in terms of their retirement 
pay. Right now FERS employees pay 12 percent of their salary--
0.8 percent of salary for annuity, 6.2 percent of their salary 
for Social Security, and 5 percent for the Thrift Savings Plan 
(TSP). Congressional proposals to increase that by 7 percent 
would mean that FERS employees would pay over 18 percent of 
their salary for retirement. New employees would be unable to 
afford this. They probably would not contribute to the TSP, and 
they would lost investment earnings because of that. These 
kinds of proposals to attack the pay and benefits of Federal 
employees would severely inhibit recruitment of the types of 
individuals that we need in Federal service.
    In conclusion, Mr. Chairman, unless these efforts to 
destroy the image and middle-class status of Federal employees 
are not halted, it will not make a bit of difference if the 
Administration creates the best possible programs for interns 
and recent graduates. A candidate with any sense at all would 
refuse to join a workforce which is constantly being maligned 
and financially undermined for political purposes.
    That concludes my testimony. I would be happy to answer any 
questions.
    Senator Akaka. Thank you very much, Mr. Skwierczynski.
    Ms. McFarland, I believe it is imperative that our agencies 
and universities work together to make sure universities 
understand the education and skills needed to prepare students 
for particular Federal career paths. This helps universities 
place their graduates in good jobs and helps the Federal 
Government recruit the people it needs, especially for 
technical, scientific, and medical jobs that often are 
difficult to fill.
    How is NASPAA working with your members to encourage this 
coordination? And what more can we do to help with this effort?
    Ms. McFarland. I think NASPAA has a special role in 
coordination because we are an accreditor and we are able to 
bring employers and our schools together to talk about how 
students need to be prepared to serve the skill requirements of 
employers. And in this case, our employers are the Federal 
Government, State government, local government, nonprofits, et 
cetera.
    Our accreditation process has become outcome oriented and 
is competency based, so we are very used to invoking the 
language of what can our graduates know and demonstrate they 
can do in their future workplace.
    So we actually have an opportunity to bring this competency 
discussion to the table as to how you develop students into 
Federal workers using well-established skills and competencies 
that we have been working on since they were in college and 
graduate school, and in internships, and then as they enter 
some of the special Pathways Programs for students.
    Senator Akaka. Thank you.
    Mr. McManus, you testified about the undersupply of 
qualified candidates in certain fields. Although interest in 
Federal service is high, students may not understand the 
available career paths and what training they need. Students 
interested in government might be drawn to these fields if they 
knew about the opportunities available early enough.
    How could we better inform students about Federal jobs 
early enough for them to target their preparation for mission-
critical fields?
    Mr. McManus. Mr. Chairman, I think there are several ways 
that we can do a better job across the Federal Government to 
try to educate young people about the opportunities that exist. 
First and foremost Federal agencies too often wait to do their 
recruiting until somebody is in college--typically in their 
junior or senior year. Federal agencies, as well as society as 
a whole, need to change the perception of Federal employees and 
develop campaigns that show the great work that Federal 
employees are doing.
    One of the programs that the Partnership conducts that does 
a great job of doing this is the Service to America Medals, 
which highlights outstanding Federal employees and the work 
they are doing. The program helps people understand that 
regardless of what occupation you are in, there are 
opportunities for you in the Federal Government.
    Clearly on college campuses we need to do more and go 
beyond career services to connect directly with faculty in 
those areas where government needs talent the most. Again, 
largely we look at career services as the gateway to our talent 
on campuses. If we are going to be successful, we need to 
expand those efforts.
    Senator Akaka. Let me followup with this: Your testimony 
states that the new Student Pathways Programs lay the 
groundwork to improve recruiting. I would like to hear your 
thoughts on how these new programs should be used specifically 
to recruit mission-critical talent to government.
    Mr. McManus. Great. As I stated, the Partnership believes 
that student interns should be a vital component of all 
agencies' entry-level pipelines, getting to students early in 
the process and educating them about the opportunities that 
exist. I think Mike Kane from the Department of Energy talked 
about the value of the Student Ambassador Program in not only 
reaching faculty but also in reaching students. Interestingly 
enough, my colleague here from Teach for America said that last 
year they reached 32,000 potential applicants in their 
recruitment process. In the 2009-10 year, 29 Ambassadors 
reached more than 17,000 students across college campuses.
    So, again, I think one way to attract mission-critical 
talent to government is by having peers who have actually 
served in an internship talk about their experience back on 
their campus and get people energized about the opportunities 
they have in government.
    Clearly the Pathways Program, particularly the Internship 
Program, gives students a first taste of the Federal Government 
and begins to expose them not only to the work of the 
individual agency and the work of the individual office they 
are in, but government at large. That is a great first step. We 
need to capitalize on student internship programs to build 
talent pipelines. A key feature of the recent graduate program 
is the opportunity to develop professional. It is not simply a 
hiring process or a hiring authority. It is actually a way to 
bring people in and to provide on-the-job training for the job 
that they are going to take over.
    Senator Akaka. Thank you.
    Ms. Mahle, as we have heard from a few of our witnesses 
today, it is important to have the right data to assist a 
recruitment program and adapt recruitment strategies 
accordingly. What type of data do you collect each year to help 
reassess your strategies? And how have you adapted your 
approach based on that data?
    Ms. Mahle. Thank you. We have a strong relationship with 
data on the recruitment team at Teach for America. We start 
out--it is a process, so we start out with basic demographic 
data. How many seniors are there in a class at each college and 
university that we recruit at? What is the demographic make-up 
of that student body based on race? And based on that 
information we set recruitment goals at the top schools we 
recruit at. We set goals at about 340 schools across the 
country.
    This coming fall we will have 73 recruiters on the ground 
in the field, and we track data day in and day out: How many 
people they contact via e-mail, how many people they meet with 
one on one, in a group setting, and then what the conversion 
rates are from that meeting based on who starts an application 
and who completes it.
    We are able to track on a weekly basis. We generate reports 
that are sent out to the team that track the percent of folks 
who started applications that we have engaged with, and then we 
look at where we are at as compared to the previous year at 
that point in time in terms of the number of applications 
started, and we break that out by our target areas in terms of 
both race, so African American, Latino, Asian American, Native 
American, as well as people who identify as receiving a Pell 
grant, which is the proxy that we use as someone coming from a 
low-income community.
    We are lucky in that we have five application deadlines, so 
each deadline represents at benchmark at which point you can 
step back and reflect on the process and figure out where you 
need to adjust course.
    So that is how we use data in the recruitment process, but 
I think another key component is the selection process because 
you have to identify the right people to recruit so that you 
have a high return. We use our student achievement data from 
our corps members to inform our selection process. So we look 
at our most effective teachers, what they are doing in the 
classroom, who has the greatest outcomes with their students. 
And then we look back 2 years or 1 year to see what they 
brought and what they demonstrated in the application process. 
And we feed all of that information together, and then we feed 
that back to our on-the-ground recruiters so that they are 
identifying the right folks on the front end to spend time and 
effort on so that they will be successful in the process.
    Does that answer your question?
    Senator Akaka. Yes. Thank you very much.
    Mr. Skwierczynski, as we have already discussed, I am 
pleased that the Federal Career Intern Program has been phased 
out. That program had been used as a broad direct hiring 
authority which I believe undermined veterans' preference and 
important Merit System principles.
    What do you think needs to be done to make sure that the 
new Student Pathways Programs do not again become a substitute 
for the competitive hiring process?
    Mr. Skwierczynski. Well, I think one thing that we have 
learned from FCIP is that, as I testified, if individual 
managers are given full recruitment authority with no strings 
attached, you find abuses. Now, in Social Security, for 
instance, we have 1,500 hiring officials. There are 1,500 
offices and each manager does their own hiring. So many of them 
recruit at universities where their offices are located, but 
many of them decided that since there were no strings attached 
and there were no rules under FCIP that they would hire 
daughters and sons and nieces and nephews of fellow managers or 
their friends, and that cannot continue under this new Pathways 
Program.
    As I said, oversight is not enough. You need rules. You 
need to return to a competitive hiring system where everyone 
understands, the recruiter and the recruitee understand what 
the rules are, what the scoring system is, and that the best 
possible candidates will be selected for the vacancies that are 
open.
    Open-ended hiring systems do not work. We have seen it 
certainly in Social Security. There are too many abuses, so we 
cannot return to that system.
    Senator Akaka. Ms. McFarland, you noted in your testimony 
that in recent years the competitive hiring system has not 
worked well for graduate students who have strong training and 
skills but may have little work experience, especially in the 
Federal Government. Why do you think this became more of a 
problem in recent years? And what can we do to make the 
competitive hiring process more accessible to recent graduates?
    Ms. McFarland. It is indeed true that in recent years grad 
students have been having a harder time than they used to have. 
I think you can trace it to a lot of things: An explosion in 
the number of applications as we developed online mechanisms; 
the lack of familiarity of graduate students with how the 
system works and real uncertainty how best to present 
themselves on USAJOBS.
    How can we make it more accessible? The competitive hiring 
system should continue to be an avenue for graduate students to 
come into government, in addition to Pathways. I think for it 
to be more accessible, there would have to be better 
connections with internship programs so that students have more 
demonstrated work experience, coming into the competitive 
hiring system, so that they actually can document work 
experience and get some recognition for that. Some of the new 
resume-based applications that OPM has been introducing will be 
more familiar to students who are applying for other kinds of 
jobs besides Federal jobs that may help them.
    But I continue to think that the Pathways Programs will be 
very important in addition to the competitive hiring system for 
grad students to have opportunities in Federal service.
    Senator Akaka. Ms. Mahle, would you please tell us more 
about how you use your alumni network to recruit on campus?
    Ms. Mahle. Certainly. We currently have about 20,000 alumni 
of Teach for America, and we work with them in a variety of 
ways. We have a number of alumni who are in graduate school, 
and so we utilize them to both recruit their peers who are in 
graduate school, but also to recruit seniors and to work with 
underclassmen.
    We also use alumni to engage in phone meetings, in various 
e-mail campaigns with individuals from their alma maters, be 
they graduate school or undergraduate, and also with peers in 
various career sectors. We have found that many of our alumni 
who entered Teach for America as professionals, having 
transitioned from a specific career sector are the most 
effective recruiters for individuals who are now contemplating 
that same kind of transition from, another sector whether it be 
finance or law or other business enterprises into teaching. 
They are in some ways the most effective individuals, and I 
think a number of people have spoken about this, and the 
Pathways Program speaks to it, too, that those individuals who 
have gone through a program have the experience, have the 
conviction, are incredibly important in terms of their candor, 
in terms of their passion for what they have done, and in terms 
of really creating that picture of what it looks like to serve 
and to have an impact and then to reflect on that, having gone 
through the entire process.
    Almost all of our recruitment staff are alumni of Teach for 
America themselves, so they are able to tell those stories, 
too. But we find there is a greater authenticity at times 
coming straight from an alumnus, who is not paid by Teach for 
America to sit down and talk with you about the experience. 
Therefore, we do lots of tag-teaming between our recruitment 
team as well as our alumni working in conjunction with one 
another. As we grow to scale we have to figure out how to 
engage this force of alumni to an even greater extent. In this 
upcoming season, alumni will fully own recruitment efforts at a 
number of colleges and universities that we have not yet 
recruited at, and we are excited to see how that plays out.
    Senator Akaka. Well, I wanted to compliment you and your 
program because I have spoken to teachers out there in Hawaii 
who are part of your program, and they have worked in different 
areas where they have made a difference.
    Ms. Mahle. Well, thank you.
    Senator Akaka. And what I like and am surprised at that is 
many of them have come back, have continued to teach in those 
areas.
    Ms. Mahle. Yes.
    Senator Akaka. And they seem, as you said, so passionate 
and committed, and I am amazed at what they are doing. So your 
recruitment must be good, and I want to use the word 
``diverse,'' because your teachers have very diverse 
backgrounds, and that helps the educational process as well.
    Ms. Mahle. Thank you. We think it is incredibly important. 
It is incredibly important to the students and families that we 
serve, and frankly, it moves us forward as an organization to 
have as many diverse perspectives at the table when we make 
decisions. Thank you.
    Senator Akaka. Well, thank you so much for all of that.
    My final question is to the panel, and I know that as you 
sit here you have other kinds of comments you would like to 
make, and so I am going to give you that opportunity to add any 
other comments or recommendations you may have for this 
Subcommittee.
    I think the final thing we can do to help these situations 
and issues is legislation, so I would look at legislation as a 
final thing. But, we can make administrative changes, and so 
when you make your additional comments, suggest maybe what 
areas we can move in to move as quickly as we can to meet the 
challenge of the retirement wave.
    Let me then call on Mr. McManus to begin.
    Mr. McManus. Thank you. I actually want to reiterate one of 
the points that I made in the oral statement. It is also 
addressed in the written testimony. It is critical that we not 
only collect data but also hold leaders accountable for 
recruitment and hiring. Leadership accountability is key.
    As we look at the landscape of young people we actually do 
not see lack of interest in the Federal Government. The 
challenge is that many young people do not understand what 
opportunities exist. We have found that, particularly in 
mission-critical jobs, the more individuals with engineering 
and the highly scientific backgrounds find out about Federal 
opportunities, the more they are interested in them.
    The real issue, though, is that Federal agencies need to be 
held more accountable for hiring reform. I am going to give a 
quick example of this. One of the key components of the hiring 
reform initiative and something that OPM is holding agencies 
accountable for is reducing time to hire. Time to hire in and 
of itself is not a good measure. We could hire very quickly and 
approve the hiring process overnight, but it does not mean that 
we have actually gotten the quality of applicant or the quality 
of hire that we actually need.
    More importantly, if we begin to break down that time-to-
hire data and look at time to hire for an internal candidate 
versus time to hire for an external candidate, I think we would 
be very surprised. I would surmise that the time it takes to 
hire somebody internally should be significantly lower than 
what it is to hire somebody externally.
    If we are looking at an aggregate time to hire, we are 
fooling ourselves by saying that it takes us 80 days to hire 
someone when, in fact, it may take us 20 days to hire the 
internal candidate but it takes us 200 days to hire the 
external candidate.
    The Department of Housing and Urban Development has 
recently launched an internal initiative to look at something 
they call HRStat. They are taking hiring data very seriously 
and are having Cabinet-level or Department-level conversations 
about how long it takes to hire a candidate, how long it takes 
to hire somebody internally versus externally and how long does 
it takes to hire a candidate in one office versus another.
    Through this analysis they are able to uncover where the 
real problems and challenges within their hiring and 
recruitment process are, and are able to hold managers that are 
specifically responsible for those offices more accountable for 
their actions.
    Again, as I said in my oral testimony, until we actually 
hold leaders accountable for recruitment and hiring, everything 
we tweak around the edges is actually just that--a tweak around 
the edge.
    Thank you.
    Senator Akaka. Thank you very much, Mr. McManus. Ms. 
McFarland.
    Ms. McFarland. Yes, I would like to close by saying one of 
the things I found very interesting about this hearing was the 
issue of partnerships between universities and the Federal 
Government. The Pathways Programs raise a tremendous 
opportunity for those partnerships to take place. And I am not 
just talking about recruiting relationships, which we talked a 
bit about today. I am talking about the possibility of long-
term partnerships between universities and organizations like 
NASPAA, and also professional organizations that have set 
professional competencies for entry-level professionals, to 
work together over the long term. We need to put flesh on the 
bone of the Recent Grads Programs in functional areas to create 
programs that really serve the critical needs of the Federal 
Government, where we are having a really hard time hiring 
really good people. I think there is a tremendous opportunity 
with the Recent Grads Program to ask for excellence and ask for 
very high standards and to create programs that serve that 
purpose through long-term developmental relationships between 
universities, accreditors, professional organizations, and the 
Federal Government.
    Senator Akaka. Thank you very much. Ms. Mahle.
    Ms. Mahle. I have two recommendations on the area of 
possible legislation.
    First, Mr. McManus spoke about the availability of 
scholarships and fellowships for people who go into public 
service. One of the things that we have found to be the 
greatest barrier for people seeking to join Teach for America 
is the burden of Federal student loans, and this is 
particularly true for individuals from low-income backgrounds 
as well as individuals of color. We did a study about 3 years 
ago, and this was the No. 1 barrier. So the extent to which 
loan forgiveness could be made available for those individuals 
who seek to engage in public service, who seek to teach in low-
income communities, that I think could be a key driver to 
increasing both the diversity of our teaching corps as well as 
the number of individuals from low-income backgrounds who are 
able to pursue that path.
    Then, second, as you probably know, Teach for America's 
funding was deemed to be an earmark in this last go-round, and 
we lost it. We had nearly 50,000 people apply to Teach for 
America this year, and we will be placing 5,100 in classrooms 
in 43 regions across the country this fall. We want to grow and 
meet the growing demands of communities around this country who 
seek Teach for America corps members and the pipeline of 
leadership, the people who stay and serve as leaders in those 
communities, continues to grow. But our ability to meet those 
needs and desires of communities across this country is limited 
by our ability to fund and support them.
    So I think those are two key areas where Congress could be 
particularly helpful, loan forgiveness and potential 
appropriations. Thank you.
    Senator Akaka. Thank you. Mr. Skwierczynski.
    Mr. Skwierczynski. Yes, I have actually three things.
    One has to do with in order to have an effective and fair 
hiring system, you also have to have an effective and fair 
merit promotion system. The two go together. Without both, it 
creates many workplace problems when recruits, new hires are 
placed into positions that current employees have the 
expectation that should be open for merit promotion.
    During recent years in Social Security, when we were 
hiring, once Obama was elected, under the stimulus package, 
there were about 7,000 hires in Social Security. Unfortunately, 
the agency decided to concentrate its efforts completely on 
hiring people rather than promoting people, and that caused a 
lot of internal resentment among incumbents within the agency 
who did not have the same opportunities for merit promotions as 
they did in the past. So I think it is extremely important that 
agencies do not concentrate on one aspect of filling vacancies 
to the exclusion of the other.
    A second recommendation--and in the Clinton Administration 
we had a pilot program on this in Social Security--is to use 
current employees in the recruitment process. Oftentimes we 
find that when employees are hired, they are very surprised at 
actually the nature of the work and also the workplace 
environment, that they were not given a lot of information 
during their recruitment about the actual work life that they 
would be experiencing if they were hired, and this causes a lot 
of folks, after short periods of time, to leave because they 
are surprised when they get here about the working conditions.
    So I would recommend that agencies consider using current 
employees in the recruitment practices while they are 
recruiting, in the interviewing, and interviewing recruits, who 
would be more free and be more able to answer questions and to 
alert new hires about the nature of the jobs that they are 
considering taking.
    The third thing is, once hired, we have found that 
oftentimes new hires are given little information about their 
benefits options and oftentimes make choices without having 
sufficient information. Oftentimes agencies have training 
classes for folks that are close to retirement about their 
options with regards to investments and everything when they 
retire. Those kinds of classes should be done when people are 
hired so that they can make reasoned choices about their 
benefits at the beginning of their Federal service rather than 
at the end when it is too late.
    Senator Akaka. Well, thank you very much, and I want to 
thank all of our witnesses today for your thoughts and your 
recommendations. I encourage all of you to continue working 
together, and with this Subcommittee to build stronger 
relationships between the Federal agencies and our Nation's 
colleges and universities. It is critical that we recruit and 
retain the best and the brightest to take on the pressing 
challenges our country faces.
    The hearing record will remain open for 1 week for Members 
to submit any additional statements or questions.
    Again, I want to compliment you for your statements and 
tell you that what I have heard today will really help us in 
our work to try to help our Federal Government to bring this 
about. So thank you again, and I want to wish all of you well.
    This hearing is adjourned.
    [Whereupon, at 4:20 p.m, the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
